1a

RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC
DATABASE
(WITH
THE
NOTATION "SUMMARY ORDER"). A PARTY
CITING A SUMMARY ORDER MUST SERVE A
COPY
OF
IT
ON
ANY
PARTY
NOT
REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
Michael Anthony DEEM, Plaintiff-Appellant,
v.
Lorna M. DIMELLA-DEEM, Linda Eichen, Esq., Hon.
Hal B. Greenwald, F.C.J., and Hon. Joseph A.
Egitto, A.J.S.C., Defendants-Appellees.*
19-1630-cv
April 9, 2020
Appeal from a May 2, 2019 judgment of the United
States District Court for the Southern District of New
York (Kenneth M. Karas, Judge).
UPON DUE CONSIDERATION WHEREOF, IT
IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District Court be
and hereby is AFFIRMED.

2a

Attorneys and Law Firms
FOR PLAINTIFF-APPELLANT: Michael A. Deem,
pro se, Yonkers, NY.
FOR DEFENDANTS-APPELLEES: Anthony P.
Colavita and Noah Nunberg, L’Abbate, Balkan,
Colavita & Contini, L.L.P., Garden City, NY.
PRESENT: Amalya
L.
Kearse, José
Cabranes, Michael H. Park, Circuit Judges,

A.

SUMMARY ORDER
Plaintiff-Appellant Michael Deem (“Deem”), an
attorney proceeding pro se, sued his estranged wife,
Lorna DiMella-Deem, her family law attorney, Linda
Eichen, and two state-court judges under 42 U.S.C. §
1983 for violations of the First, Second, Ninth, and
Fourteenth Amendments. He alleged that DiMellaDeem and Eichen conspired with a family court judge
to deny him due process and extend a temporary order
of protection against him that prohibited him from
contacting his children, practicing his religion with
them, or accessing his guns. The District Court
dismissed the complaint, reasoning, inter alia, that the
DiMella-Deem and Eichen were not state actors, that
the defendant judges were entitled to judicial
immunity, and that it should abstain under the domestic
relations abstention doctrine. See App’x 48. We assume
the parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.
“We review de novo a district court’s dismissal of a
complaint pursuant to Rule 12(b)(6), construing the
complaint liberally, accepting all factual allegations in

3a

the complaint as true, and drawing all reasonable
inferences in the plaintiff’s favor.” Chambers v. Time
Warner, Inc., 282 F.3d 147, 152 (2d Cir. 2002).
The District Court properly dismissed the
complaint. In American Airlines, Inc. v. Block, we held
that “[a] federal court presented with matrimonial
issues or issues ‘on the verge’ of being matrimonial in
nature should abstain from exercising jurisdiction so
long as there is no obstacle to their full and fair
determination in state courts.” 905 F.2d 12, 14 (2d Cir.
1990) (quoting Csibi v. Fustos, 670 F.2d 134, 137 (9th
Cir. 1982)). Because we saw no such obstacle, we held
that the District Court should have abstained in part
from adjudicating the action. Id.at 15.
We recently re-affirmed the vitality of American
Airlines in Deem v. DiMella-Deem, 941 F.3d 618, 623–
25 (2d Cir. 2019). There, Deem—the same plaintiff
here—sued DiMella-Deem and others under § 1983,
alleging that they conspired to maliciously prosecute
him and violate his right to intimate association with his
children by seeking and obtaining a temporary order of
protection prohibiting him from contacting his
children. See Deem, 941 F.3d at 620. We concluded that
the District Court properly abstained under American
Airlines because Deem’s claims were, “at a minimum,
on the verge of being matrimonial in nature” and that
there was “no obstacle to their full and fair
determination in state courts.” Id. at 623 (internal
quotation marks omitted).
Deem’s allegations in this case are nearly
identical to the allegations we considered in his prior
appeal. In this case, he alleged that his injuries—
inability to practice Catholicism with his children,
inability to gain access to his guns, inability to see his
children, and denial of due process—stemmed from the

4a

defendants’ actions in obtaining an extension of the
temporary order of protection from the family court.
This is the same order of protection and family court
case discussed in Deem. Therefore, the issues here are
also “on the verge of being matrimonial in
nature.” See id. at 623, 625. Further, Deem made no
allegation that he could not vindicate his rights in state
court, and does not dispute the District Court’s
conclusion on this point. Accordingly, the District Court
properly dismissed the complaint on American
Airlines domestic relations abstention grounds.
CONCLUSION
We have reviewed all of the arguments raised by
Deem on appeal and find them to be without merit. For
the foregoing reasons, we AFFIRM the May 2, 2019
judgment of the District Court.

5a

Only the Westlaw citation is currently available.
United States District Court, S.D. New York.
Michael DEEM, Plaintiff,
v.
Lorna DIMELLA-DEEM; Linda Eichen, Esq.; Hon.
Hal Greenwald; and Hon. Joseph Egitto, Defendants.
No. 18-CV-11889 (KMK)
Signed 05/01/2019Filed 05/02/2019
Attorneys and Law Firms
Michael A. Deem, Yonkers, NY, Pro Se Plaintiff.
Anthony P. Colavita, Esq., Noah Nunberg, Esq.,
L’Abbate, Balkan, Colavita and Contini, LLP, Garden
City, NY, Counsel for Defendant Linda Eichen.
OPINION & ORDER
KENNETH M. KARAS,
DISTRICT JUDGE

UNITED

STATES

Plaintiff, Michael Deem (“Plaintiff”), an attorney
proceeding pro se, brings this action pursuant to 42
U.S.C. § 1983, and 22 U.S.C. §§ 2201 and 2202, against
his estranged wife, Lorna M. DiMella-Deem (“DiMellaDeem”), his wife’s attorney, Linda Eichen, Esq.
(“Eichen”), the Westchester County Family Court
Judge presiding over his child custody proceedings, the
Honorable Hal B. Greenwald (“Judge Greenwald”), in
his individual capacity, and the Supervising Judge of
the New York Family Courts in the Ninth Judicial

6a

District, the Honorable Joseph A. Egitto (“Judge
Egitto”), in his official capacity, alleging violations of
his First, Second, Ninth, and Fourteenth Amendment
rights. (Compl. (Dkt. No. 1).)1 Before the Court are
Eichen and DiMella-Deem’s Motions to Dismiss.
(Eichen Not. of Mot. (Dkt. No. 9); DiMella-Deem Not. of
Mot. (Dkt. No. 13).)2 For the follow reasons,
Defendants' Motions are granted.
I. Background
A. Factual Background
1. Plaintiff’s State Child-Custody Proceedings
The facts recounted below are taken from
Plaintiff’s Complaint and are assumed to be true for
purposes of resolving the Motions.
Plaintiff alleges that he and DiMella-Deem are
parents to two adoptive children, a thirteen-year-old
daughter and a twelve-year-old son. (Compl. ¶ 9.)
Plaintiff and DiMella-Deem allegedly agreed to raise
their children in the Catholic faith and Plaintiff was an
active participant in the children’s practice of their
religion, including attending mass and participating in
catechesis. (Id. ¶ 10.) Plaintiff alleges he enjoyed “an
excellent relationship with his children” until DiMellaDeem and her “co-conspirators” interfered with his
“parental relations by fabricating allegations.” (Id. ¶
11.)
Plaintiff alleges that on May 17, 2016, he placed
various handguns in the care of Blueline Tactical
Supply & Shooting Sports, in Elmsford, New York, and
that DiMella-Deem willingly gave him $ 500 cash to
cover the storage fee. (Compl. ¶ 12.)
On November 7, 2017, Plaintiff filed an action for
divorce in Westchester County Supreme Court seeking

7a

resolution of custody and equitable distribution of the
marital assets. (Id. ¶ 13.) On December 6, 2017,
DiMella-Deem filed an answer seeking sole custody of
the children, which created a custody dispute between
her and Plaintiff. (Id. ¶ 14.) Plaintiff alleges that in
February 2018, DiMella-Deem offered to settle the
divorce by giving Plaintiff $ 10,000 and having him
move out of the marital home. Plaintiff rejected the
offer. (Id. ¶ 15.) DiMella-Deem then allegedly yelled in
a loud and hostile tone, “You better back off Michael!
You better back off! You don't think I'll throw my
money at this! Huh?! You don't think I'll throw my
money at this! You're going to be sorry! You're going
to have nothing! No money. No home. No family.
Nothing! You better back off!” (Id.)
“In March and April 2018, Plaintiff and DiMellaDeem filed petitions against each other in Westchester
Family Court pursuant to the New York State Family
Court Act, Article 8.” (Id. ¶ 16.) Plaintiff alleges that on
April 19, 2018, DiMella-Deem filed fabricated
allegations with Westchester County Child Protective
Services (“CPS”), resulting in a no contact temporary
order of protection (“TOP”) that precluded Plaintiff
from, inter alia, having any contact with his children
and being escorted from the marital home by local law
enforcement. (Id. ¶ 17.) The TOP also required Plaintiff
to surrender all firearms to local law enforcement and
prohibited him from obtaining any others. (Id.) Plaintiff
alleges that the Family Court then entered the TOP
into the statewide registry of orders of protection and
notified local authorities of the same. Local police
authorities then entered Plaintiff’s name into the
National Instant Criminal Background Check System
(“NICS”) that same day. (Id. ¶ 20.)

8a

Plaintiff alleges that he surrendered various long
guns to local law enforcement and explained that his
handguns were stored at Blueline. Plaintiff informed a
police officer that in order to comply with the letter of
the TOP both he and Blueline would have to violate
criminal provisions of federal and state laws governing
firearms because his name had been entered into NICS
and his pistol license had expired. (Compl. ¶ 21.) The
police officer allegedly declined to retrieve the
handguns himself, agreed that Blueline and Plaintiff
would have to violate federal and state laws governing
firearms to comply with the TOP, and directed Plaintiff
not to try to obtain the handguns while the TOP was in
effect. Plaintiff alleges that he complied with this
instruction. (Id. ¶ 22.)
Plaintiff alleges that on April 25, 2018, DiMellaDeem filed a petition under New York law containing
additional fabricated allegations against Plaintiff. (Id. ¶
23.) Plaintiff alleges that he informed the Family Court
judge through counsel that he had unequivocal evidence
that DiMella-Deem’s allegations were fabricated, but
that his statements and the evidence were ignored. A
new “no contact” TOP was issued, which allowed for
only six hours of supervised visits with his children.
(Id.) Plaintiff alleges that he asked his attorney if he
would be afforded a hearing to present his evidence and
re-establish contact with his children, and that his
attorney “blurted out” in response that “[i]t doesn't
work like that here.” (Id. ¶ 31.)
On May 10, 2018, DiMella-Deem filed a violation
petition in Family Court falsely alleging that Plaintiff
stopped DiMella-Deem’s mail at the marital residence
and that he “engaged in conduct protected by the First
Amendment.” (Id. ¶ 24.) Plaintiff alleges that he only
stopped by the house to get his own mail and that he

9a

“provided proof that day.” (Id.) Nonetheless, the “no
contact” TOP was extended, and again allowed for only
six hours of supervised visits with his children. (Id.)
Plaintiff alleges that on May 15, 2018, DiMellaDeem conceded, and the Family Court acknowledged,
that Plaintiff was not a threat to the children. Despite
that concession, the Family Court appointed an
attorney for the children (“AFC”), Faith Miller, Esq.
(“Miller”). At the time Plaintiff was not informed who
the AFC would be. (Compl. ¶ 25.) Plaintiff alleges that
at this point he again asked his attorney if he would be
afforded a hearing to present his evidence and reestablish contact with his children, and that his
attorney again “blurted out” in response that “[i]t
doesn't work like that here.” (Id. ¶ 32.)
On June 12, 2018, CPS received an “unfounded
an[d] anonymous complaint” of alleged child neglect
against Plaintiff. Plaintiff alleges that the complaint
“could have only originated” with DiMella-Deem. (Id. ¶
26.) On June 13, 2018, the AFC filed an emergency
order to show cause seeking to suspend all contact
between Plaintiff and his children, allegedly “in
retaliation for Plaintiff filing a violation petition against
[DiMella-]Deem in Family Court.” (Id. ¶ 27.) The
Family Court signed the order a few hours later, ex
parte, and the “no contact” TOP was extended to
September 28, 2018, sua sponte. (Id.)
Plaintiff alleges that he subsequently learned
that the AFC was prohibited from accepting “private
pay” assignments pursuant to court rules regarding
conflicts of interest, because she is married to the
Presiding Judge of the New York State Supreme
Court, Second Department. (Id. ¶ 28.) On August 17,
2018, DiMella-Deem’s second attorney was relieved as
counsel. (Id. ¶ 29.)

10a

On September 24, 2018, Eichen filed a notice of
appearance in Family Court on behalf of DiMella-Deem.
(Compl. ¶ 33.) On September 26, 2018, Eichen filed an
ex parte application to modify the TOP entered on
April 19, 2018 to include surrender of Plaintiff’s
handguns to Blueline. The application was granted. A
new TOP was issued continuing the suspension of all
contact between Plaintiff and his children and ordering
him to surrender all firearms to local law enforcement
or Blueline. (Id. ¶ 34.) Plaintiff alleges that Eichen and
DiMella-Deem made affirmative misrepresentations
that Plaintiff had access to his handguns at Blueline in
support of their application, and that Judge Greenwald
knew they were affirmative misrepresentations. (Id. ¶
48.)
On September 28, 2018, a conference was held by
Judge Greenwald. Plaintiff stated that he was in
compliance with the TOP filed on April 19, 2018, but
Judge Greenwald allegedly refused to hear the matter
until he appointed new AFCs for the children. The
matter was adjourned to November 9, 2018, and the “no
contact” TOP extended to the same day. (Id. ¶ 35.)
On September 28, 2018, the Family Court
granted AFC Miller’s application to be relieved. (Id. ¶
30.) Between September 28 and November 9, 2018,
Judge Greenwald appointed an AFC for each of
Plaintiff’s children. Plaintiff was allegedly not informed
of the appointments. (Id. ¶ 36.)
On September 29, 2018, Plaintiff wrote a letter to
Judge Egitto seeking, inter alia, assistance in being
afforded a hearing pursuant to the New York State
Family Court Act (“FCA”), § 842-a(7), which provides
for hearings related to any firearm revocation,
suspension, ineligibility, or surrender order. (Id. ¶ 37.)
On October 2, 2018, Judge Egitto responded to Plaintiff

11a

and pointed out that a hearing was already scheduled
for November 9, 2018 and a trial on the underlying
petitions for January 8 and 9, 2019. (Id. ¶ 38.)
On November 9, 2018, Plaintiff learned that
Judge Greenwald appointed AFCs for each of his
children when they appeared in Family Court. Plaintiff
objected to the appointment of the AFCs and requested
to know the authority by which Judge Greenwald had
appointed them. (Compl. ¶ 39.) Plaintiff alleges that one
of the newly-appointed AFCs is precluded from
accepting “private pay” assignments pursuant to court
rules regarding conflicts of interest, because he is
married to an employee of the Westchester County
Family Court. (Id. ¶ 40.)
Plaintiff alleges that on November 10, 2018, he
was “willfully and maliciously deceived and believing
that no TOP was in place,” and thus attempted to reestablish contact with his children by sending texts,
calling their cell phones, and leaving a voicemail for his
son. (Id. ¶ 49.) That same day, Plaintiff went to the local
police department near the marital home and requested
an escort to the house because he believed DiMellaDeem would fabricate new allegations. The police
informed Plaintiff that DiMella-Deem had just filed a
complaint that Plaintiff violated a TOP, and showed
Plaintiff a “no contact” TOP that was signed by Judge
Greenwald on November 9, 2018. (Id. ¶ 50.)
Plaintiff alleges that the TOP incorrectly stated
that the Plaintiff was advised in court of the issuance
and contents of the TOP, and that the order was
personally served upon Plaintiff in court. (Id. ¶ 51.)
Plaintiff was subsequently arrested and arraigned that
day for violating the TOP which he alleges was
“secreted from him the day prior.” (Id. ¶ 52.)

12a

Plaintiff
subsequently
contacted
Judge
Greenwald’s chambers and asked that a corrected TOP
be issued to reflect that Plaintiff was not advised of the
existing TOP in Court and was not personally served
with it. Judge Greenwald denied the request. Plaintiff
alleges that Judge Greenwald never stated that
Plaintiff was wrong in his assessment of the accuracy of
the TOP. (Id. ¶ 53.)
Every TOP issued by the Family Court from
April 19, 2018 through the present time has required
Plaintiff to, inter alia, surrender his firearms. (Compl.
¶54.) Plaintiff alleges that the Westchester Family
Court never made a finding that Plaintiff presented a
physical danger to the children or anyone else, or any
other basis to order Plaintiff to surrender his firearms
or enter a “no contact” TOP. (Id. ¶55.)
Plaintiff alleges that on multiple occasions while
entering the Westchester County Courthouse, he
observed a man holding a large sign stating that he has
been denied all contact with his children for six years
by the Westchester County Family Court, but has
never been afforded a hearing. (Id. ¶56.) Plaintiff
alleges that the “Westchester County Family Court has
an unconstitutional custom and practice of issuing TOPs
without proper cause and rarely, if ever, providing the
party against whom the TOP is entered a hearing
pursuant to FCA, § 842-a(7).” (Id. ¶57.) Plaintiff alleges
that as a result of Defendants' “constitutional
misconduct Plaintiff is the targeted parent of parental
alienation.” (Id. ¶ 58.)
2. Plaintiff’s Claims
Plaintiff’s first claim is against DiMella-Deem
and Eichen under § 1983 for violating his First

13a

Amendment religious freedom rights by allegedly
denying him the right to practice his religion by
participation in family mass and catechesis with his
children. (Id. ¶¶ 60–62.)
Plaintiff’s second claim is against DiMella-Deem
and Eichen under § 1983 for violating his First, Ninth,
and Fourteenth Amendment rights by allegedly
denying him his “right to parental relations.” (Id. ¶¶
63–65.)
Plaintiff’s third claim is against DiMella-Deem
and Eichen under § 1983 for violating his Fourteenth
Amendment due process rights by allegedly conspiring
“with Judge Greenwald to enter a restraining order
against Plaintiff in secrecy and without cause to deny
Plaintiff his right to a hearing pursuant to FCA § 842a(7).” (Id. ¶¶ 66–69.)
Plaintiff’s fourth claim is against DiMella-Deem
and Eichen under § 1983 for violating his Second
Amendment right to keep and bear arms by allegedly
agreeing with Judge Greenwald to enter a restraining
order against Plaintiff. (Compl. ¶¶ 70–72.)
Plaintiff’s fifth claim is against Judge Greenwald
under § 1983 for violating his First, Second, Ninth, and
Fourteenth Amendment rights “by his prolonged and
repeated refusal to perform his constitutional and
statutory duties, specifically to hold a post-deprivation
hearing pursuant to FCA § 842-a(7).” (Id. ¶¶ 73–75.)
Plaintiff’s sixth claim is against Judge Egitto, “in
his official capacity as the Supervising Judge of the
Family Courts, in the 9th Judicial District, State of
New York,” under § 1983 and 22 U.S.C. §§ 2201 and
2202, for failing or refusing to “correct a custom and
practice in the Westchester County Family Court of
denying litigants their constitutional right[s] to”
freedom of religion, parental relations, due process,

14a

keep and bear arms, and a hearing pursuant to FCA, §
842-a(7). (Id. ¶¶ 77–82.) Plaintiff alleges Judge Egitto
also failed or refused to correct a custom and practice of
appointing AFCs without jurisdiction, (id. ¶ 83), and a
custom and practice of “failing to inform parents when
AFCs are appointed, the legal authority for the
appointment, the factual basis for the appointment, the
identity of the AFC and if the AFC is precluded from
accepting any appointments,” (id. ¶ 84).3
Plaintiff seeks various forms of declaratory relief
and damages, (id. ¶¶ A–M, S), but also injunctive relief
in the form of “an order compelling the Westchester
County Family Court to hold post-deprivation hearings
within three days of entering ‘no contact’ TOPs,” (id. ¶
N), and “an order compelling the Westchester County
Family Court to hold post-deprivation hearings within
fourteen days of ordering litigants to surrender their
firearms,” (id. ¶ O).
B. Plaintiff’s Previous Litigation
This is Plaintiff’s third action seeking relief from
the District Court for the Southern District of New
York related to Plaintiff’s state court divorce
proceedings. See Deem v. DiMella-Deem, No. 18-CV6186; Deem v. Scheinkman, No. 18-CV-10777. In both
actions, Plaintiff filed suit against DiMella-Deem and
other parties involved in the state divorce and childcustody proceedings including attorneys and judges.
Plaintiff’s complaints were both dismissed sua sponte,
first by Judge Román and subsequently by Judge
Seibel. Plaintiff’s first complaint was dismissed by
Judge Román on July 24, 2018 on the grounds of judicial
immunity, the Younger abstention doctrine, and the
domestic relations exception. See Deem v. DiMella-

15a

Deem, No. 18-CV-6186 (Order of Dismissal (Dkt. No.
18).) Judge Seibel dismissed Plaintiff’s second action on
December 18, 2018, finding that he was not entitled to
federal mandamus relief and that his claims were
barred by the Younger abstention doctrine. See Deem v.
Scheinkman, No 18-CV-10777 (Order of Dismissal (Dkt.
No. 7).) Judge Seibel also issued Plaintiff a warning,
stating that “further duplicative or frivolous litigation
in this Court may result in an order requiring Plaintiff
to obtain written permission before filing new actions in
this Court challenging the actions of his wife, judges,
and other officials involved in the divorce and custody
proceedings pending in Westchester County.” Id. at 7.
C. Procedural Background
Plaintiff filed his Complaint on December 18,
2018. (Compl. (Dkt. No. 1).) On January 10, 2019,
counsel for Eichen submitted a pre-motion letter
requesting permission to file a Motion to Dismiss.
(Letter from Anthony P. Colavita, Esq., to Court (Dkt.
No. 5).)
On January 22, 2019, DiMella-Deem, proceeding
pro se, submitted a letter requesting that the Court
dismiss Plaintiff’s Complaint. (Letter from Lorna M.
Deem to Court (Dkt. No. 6).) DiMella-Deem stated that
this Action represents the third federal complaint
Plaintiff has filed against her, that Plaintiff has
“terrorized” her and her children, that there is
currently a temporary order of protection in effect
against Plaintiff on behalf of DiMella-Deem and her
children, and that Plaintiff is having increasingly severe
mental health issues. (Id.)
On January 22, 2019, the Court set a briefing
schedule for Eichen’s Motion To Dismiss. (Dkt. No. 7.)

16a

On January 23, 2019, the Court instructed DiMellaDeem that she could join Eichen’s Motion if she chose
to do so. (Dkt. No. 8.) On February 22, 2019, Eichen
filed her Motion To Dismiss and accompanying papers.
(Eichen Not. of Mot.; Decl. of Noah Nunberg, Esq.
(Dkt. No. 10); Eichen’s Mem. of Law in Supp. of Mot. To
Dismiss (“Eichen’s Mem.”) (Dkt. No. 11); Aff. of Service
of Not. of Mot. on Plaintiff (Dkt. No. 12).) DiMellaDeem joined Eichen’s Motion that same day. (DiMellaDeem Not. of Mot.)
On March 20, 2019, after the window during
which Plaintiff could amend his Complaint as a matter
of course had closed, Plaintiff submitted a letter
requesting leave to file an amended complaint in lieu of
responding to Defendants' Motions, in order to add a
false arrest claim based on the November 10, 2018
arrest that he referenced in his Complaint, and in order
to add facts about “various decisions [that] have been
made in state court” since he filed his original
Complaint. (Letter from Michael Deem, Esq., to Court
(“Pl.'s Nov. 2018 Letter”) (Dkt. No. 15).)
On March 21, 2019, counsel for Eichen submitted
a letter opposing Plaintiff’s request. (Letter from
Anthony P. Colavita, Esq., to Court (Dkt. No. 17).)
Plaintiff did not separately request an extension to file
his response to the Motions to Dismiss which was due
on March 22, 2019 and he has not filed his response to
the Motions to Dismiss.
On April 22, 2019, just as this Opinion was in the
final stages of drafting, Plaintiff filed another letter
seeking leave to amend his Complaint and attached a
Proposed Amended Complaint. (Letter from Michael
Deem, Esq., to Court (“Pl.'s Apr. 2019 Letter”) (Dkt.
No. 18).) The Proposed Amended Complaint adds
defendants, most of whom are involved in Plaintiff’s

17a

Family Court proceedings and are state court judges,
and describes recent developments in the Family Court
proceedings.
II. Discussion
A. Standard of Review
1. Rule 12(b)(6)
The Supreme Court has held that although a
complaint “does not need detailed factual allegations” to
survive a motion to dismiss, “a plaintiff’s obligation to
provide the grounds of his entitlement to relief requires
more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (citations, quotation marks, and alterations
omitted). Indeed, Rule 8 of the Federal Rules of Civil
Procedure “demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). “Nor does a complaint
suffice if it tenders naked assertions devoid of further
factual
enhancement.” Id. (quotation
marks and
alteration omitted). Rather, a complaint’s “[f]actual
allegations must be enough to raise a right to relief
above the speculative level.” Twombly, 550 U.S. at 555.
Although “once a claim has been stated adequately, it
may be supported by showing any set of facts
consistent with the allegations in the complaint,” id. at
563, and a plaintiff need allege “only enough facts to
state a claim to relief that is plausible on its face,” id. at
570, if a plaintiff has not “nudged [his or her] claim[ ]
across the line from conceivable to plausible, the[ ]
complaint must be dismissed,” id.; see also Iqbal, 556
U.S. at 679 (“Determining whether a complaint states a
plausible claim for relief will ... be a context-specific

18a

task that requires the reviewing court to draw on its
judicial experience and common sense. But where the
well-pleaded facts do not permit the court to infer more
than the mere possibility of misconduct, the complaint
has alleged—but it has not ‘show[n]’—‘that the pleader
is entitled to relief.’ ” (citation omitted) (second
alteration in original) (quoting Fed. R. Civ. P.
8(a)(2))); id. at 678–79 (“Rule 8 marks a notable and
generous departure from the hypertechnical, codepleading regime of a prior era, but it does not unlock
the doors of discovery for a plaintiff armed with nothing
more than conclusions.”).
In considering a motion to dismiss, the Court
“must accept as true all of the factual allegations
contained in the complaint.” Erickson v. Pardus, 551
U.S. 89, 94 (2007) (per curiam); see also Nielsen v.
Rabin, 746 F.3d 58, 62 (2d Cir. 2014) (same). Further,
“[f]or the purpose of resolving [a] motion to dismiss, the
Court ... draw[s] all reasonable inferences in favor of
the plaintiff.” Daniel v. T & M Prot. Res., Inc., 992 F.
Supp. 2d 302, 304 n.1 (S.D.N.Y. 2014) (citing Koch v.
Christie’s Int'l PLC, 699 F.3d 141, 145 (2d Cir. 2012)).
2. Sua Sponte Dismissal
The Court has the authority to dismiss sua
sponte a complaint, or a portion thereof, for which a
plaintiff has paid the filing fee where the plaintiff
presents no arguably meritorious issue. See Fitzgerald
v. First E. Seventh St. Tenants Corp., 221 F.3d 362,
363–64 (2d Cir. 2000)(holding that a district court may
dismiss a frivolous complaint sua sponte even when the
plaintiff has paid the required filing fee); Pillay v.
Immigration & Naturalization Serv., 45 F.3d 14, 17 (2d
Cir. 1995) (holding that the court has “inherent

19a

authority” to dismiss a petition that presents “no
arguably meritorious issue”).
B. Analysis
1. Claims Against DiMella-Deem and Eichen
Plaintiff brings all his claims against DiMellaDeem and Eichen pursuant to § 1983. Moving
Defendants argue that all claims against them fail
because they are not state actors and cannot be sued
pursuant to § 1983. (Eichen’s Mem. 5–9.)
“Section 1983 provides a cause of action against
any person who deprives an individual of federally
guaranteed rights ‘under color’ of state law.” Filarsky
v. Delia, 132 S. Ct. 1657, 1661 (2012). Thus, to state a
claim pursuant to § 1983, a plaintiff must allege (1) that
the challenged conduct was “committed by a person
acting under color of state law,” and (2) that such
conduct “deprived [the plaintiff] of rights, privileges, or
immunities secured by the Constitution or laws of the
United States.” Cornejo v. Bell, 592 F.3d 121, 127 (2d
Cir. 2010) (quotation marks omitted). Thus, to state a
viable § 1983 claim against DiMella-Deem and Eichen,
Plaintiff must allege that they were state actors.
With respect to Eichen, Plaintiff alleges that she
represented DiMella-Deem in Family Court and filed
false ex parte applications on DiMella-Deem’s behalf.
(Compl. ¶¶ 33–34, 48.) Plaintiff does not allege that
Eichen acted in any capacity other than DiMellaDeem’s privately-retained attorney. “[I]t is wellestablished that ... attorneys performing a lawyer’s
traditional functions as counsel ... do not act ‘under
color of state law’ and therefore are not subject to suit
under 42 U.S.C. § 1983.” Rodriguez v. Weprin, 116 F.3d
62, 65–66 (2d Cir. 1997); see alsoLicari v. Voog, 374 F.

20a

App'x 230, 231 (2d Cir. 2010) (“It is well established
that private attorneys—even if the attorney was court
appointed—are not state actors for the purposes of §
1983 claims.” (citation omitted)); Harrison v. New York,
95 F. Supp. 3d 293, 328 (E.D.N.Y. 2015)(holding that
“public defenders[,] ... court-appointed counsel[,] and
private attorneys do not act under the color of state law
merely by virtue of their position”); Shorter v. Rice, No.
12-CV-0111, 2012 WL 1340088, at *4 (E.D.N.Y. Apr. 10,
2012) (holding that neither “public defenders ... nor
court-appointed counsel, nor private attorneys, act
under the color of state law merely by virtue of their
position”).
With respect to DiMella-Deem, Plaintiff fails to
offer any factual assertions from which it could be
inferred that DiMella-Deem was a state actor or that
there was any nexus between DiMella-Deem and the
state. See Daniels v. Murphy, No. 06-CV-5841, 2007
WL 1965303, at *2 (E.D.N.Y. July 2, 2007) (dismissing §
1983 claim against husband where wife failed to allege
he had any nexus to the state during their divorce
proceedings); Elmasri v. England, 111 F. Supp. 2d 212,
221 (E.D.N.Y. 2000) (dismissing § 1983 claims where
defendants, including plaintiff’s ex-wife, “acted purely
as private individuals in connection with the state court
[divorce and child custody] proceedings”).
Plaintiff does appear to allege a conspiracy to
violate his civil rights. For example, Plaintiff alleges
that DiMella-Deem and her “co-conspirators”
interfered with his “parental relations by fabricating
allegations.” (Compl. ¶ 11.) Plaintiff also alleges that
Eichen
and
DiMella-Deem
made
affirmative
misrepresentations that Plaintiff had access to his
handguns at Blueline in support of their September 26,
2018 ex parte application to modify the TRO, and that

21a

Judge Greenwald knew they were affirmative
misrepresentations. (Id. ¶¶ 34, 48.) Furthermore,
DiMella-Deem, Eichen, and Greenwald allegedly
agreed to enter a restraining order against Plaintiff to
deny him his right to keep and bear arms. (Id. ¶¶ 70–
72.) However, allegations of a conspiracy to violate civil
rights must be pleaded with specificity, and “[a]n
otherwise invalid [§] 1983 claim cannot survive a motion
to dismiss merely by mentioning the word ‘conspiracy.’
” Brewster v. Nassau County, 349 F. Supp. 2d 540, 547
(E.D.N.Y. 2004); see also Anilao v. Spota, 774 F. Supp.
2d 457, 499 (E.D.N.Y. 2011) (“Vague and conclusory
allegations that defendants have engaged in a
conspiracy must be dismissed.”). Rather, a plaintiff
must allege: “(1) an agreement between a state actor
and a private party; (2) to act in concert to inflict an
unconstitutional injury; and (3) an overt act done in
furtherance of that goal causing damages.” Ciambriello
v. County of Nassau, 292 F.3d 307, 324–25 (2d Cir.
2002). With this heightened standard in mind, the Court
finds Plaintiff’s conclusory allegations insufficient to
support a conspiracy claim under § 1983. Plaintiff does
not allege any specific facts indicating an agreement to
act in concert to harm him. See Baines v. City of N.Y.,
No. 10-CV-9545, 2015 WL 3555758, at *12 (S.D.N.Y.
June 8, 2015) (“Although [the] [p]laintiff repeatedly
asserts that [the d]efendants entered an agreement to
violate his civil rights ..., the [complaint] is devoid of
facts that would render that allegation plausible as
opposed
to
merely
conceivable.”
(citation
omitted)); Harrison, 95 F. Supp. 3d at 325 (“Critically
absent from the [c]omplaint are any specific facts
identifying a willful collaboration between [the
defendants] to deny [the] [p]laintiff’s constitutional
rights, or an overt act or the agreement between the

22a

private actors and state actor forming the conspiracy.”
(citation and quotation marks omitted)). In particular,
Plaintiff fails to plausibly allege a conspiracy between
DiMella-Deem,
Eichen,
and
Judge
Greenwald. See Parent v. New York, 786 F. Supp. 2d
516, 540 (N.D.N.Y. 2011) (holding that wife’s private
divorce attorney was not liable for allegedly conspiring
to violate plaintiff husband’s constitutional rights,
because allegations that attorney engaged in ex parte
conversation with judges, and unlawfully engaged a bar
disciplinary committee in domestic relations process,
were insufficient to establish liability under §
1983 because plaintiff “set forth no facts suggesting
concerted action” between the wife, the attorney, and
the judges); McKnight v. Middleton, 699 F. Supp. 2d
507, 531 (E.D.N.Y. 2010) (dismissing § 1983 claims
against attorneys who represented mother in state
custody proceedings because plaintiff father’s
conclusory allegations that attorneys conspired with
family court to deprive him of constitutional rights
were insufficient to state a conspiracy claim).
Because Plaintiff fails to plausibly allege that
DiMella-Deem and Eichen were state actors, or that
they conspired with state actors, Plaintiff cannot state a
claim for civil rights violations against DiMella-Deem
and Eichen. Therefore, Plaintiff’s claims against
DiMella-Deem and Eichen are dismissed.
2. Claims Against Judge Greenwald and Judge Egitto
a. Judge Greenwald
Judges are absolutely immune from suit for
damages with respect to claims under 42 U.S.C. §
1983 for any actions taken within the scope of their
judicial responsibilities. See Mireles v. Waco, 502 U.S. 9,

23a

11–12 (1991) (holding that judge was immune from §
1983 suit for actions in directing police officers to bring
an attorney before the judge, even though judge
allegedly directed officers to carry out order with
excessive force); Turner v. Boyle, 116 F. Supp. 3d 58, 82
(D. Conn. 2015) (“[A]bsolute immunity extends to all
civil suits, including suits brought under Section
1983 and [S]ection 1985.”). Generally, “acts arising out
of, or related to, individual cases before [a] judge are
considered judicial in nature.” Bliven v. Hunt, 579 F.3d
204, 210 (2d Cir. 2009). “[E]ven allegations of bad faith
or malice cannot overcome judicial immunity.” Id. at
209. This is because “[w]ithout insulation from liability,
judges would be subject to harassment and
intimidation....” Young v. Selsky, 41 F.3d 47, 51 (2d Cir.
1994). In addition, as amended in 1996, § 1983 provides
that “in any action brought against a judicial officer for
an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable.” 42 U.S.C. § 1983.
Judicial immunity does not apply when a judge
takes action outside his or her judicial capacity, or when
a judge takes action that, although judicial in nature, is
taken
“in
the
complete
absence
of
all
jurisdiction.” Mireles, 502 U.S. at 12; see also Huminski
v. Corsones, 396 F.3d 53, 75 (2d Cir. 2005) (“[I]f the
relevant action is judicial in nature, the judge is
immune so long as it was not taken in the complete
absence of jurisdiction.”). But “the scope of [a] judge’s
jurisdiction must be construed broadly where the issue
is the immunity of the judge.” Stump v. Sparkman, 435
U.S. 349, 356 (1978). The Second Circuit and district
courts therein have specifically applied such immunity
to Family Court judges. See Wrobleski v. Bellevue

24a

Hosp., No. 13-CV-8736, 2015 WL 585817, at *3
(S.D.N.Y. Jan. 30, 2015) (dismissing § 1983 claims
against state family court judges on ground of absolute
judicial immunity); Koger v. New York, No. 13-CV-7969,
2014 WL 3767008, at *6 (S.D.N.Y. July 31,
2014) (same), appeal dismissed, No. 15-092 (2d Cir.
June 23, 2015); see also Parent v. New York, 485 F.
App'x 500, 504 (2d Cir. 2012) (same).
Plaintiff alleges that Judge Greenwald violated
his First, Second, Ninth, and Fourteenth Amendment
rights “by his prolonged and repeated refusal to ... hold
a post-deprivation hearing pursuant to FCA § 842a(7).” (Compl. ¶¶ 73–75.)4 Plaintiff alleges that at the
September 28, 2018 conference, Judge Greenwald
refused to hear Plaintiff’s explanation for why he was in
compliance with the April 19, 2018 TOP, and instead
adjourned the matter to November 9, 2018 and
extended the “no contact” TOP. (Id. ¶ 35.) Plaintiff also
alleges that between September 28 and November 9,
2018, Judge Greenwald appointed an AFC for each of
Plaintiff’s children but failed to inform the Plaintiff of
those appointments, (id. ¶ 36), and that Plaintiff
objected to the appointment of the AFCs and requested
to know the authority by which Judge Greenwald was
appointing them, (id. ¶ 39). Finally, Plaintiff alleges
that Judge Greenwald declined to modify the
November 9, 2018 TOP to reflect that Plaintiff was not
advised of the existing TOP in Court and was not
personally served. (Id. ¶¶ 51, 53.)
Each of the actions Plaintiff alleges Judge
Greenwald took falls within the scope of judicial
responsibility and represents a judicial function.
Plaintiff alleges that Judge Greenwald did not have the
authority to appoint AFCs for his children, but the
Family Court Act expressly authorizes Family Court

25a

judges to “appoint a law guardian to represent the
child, when, in the opinion of the family court judge,
such representation will serve the purposes of this
act....” N.Y. Fam. Ct. Act § 249. Issuing and modifying
protective orders, and setting hearing schedules are
also clearly judicial functions and subject to judicial
immunity. See Hsu v. Braun, No. 17-CV-1828, 2017 WL
4350595, at *5 (S.D.N.Y. June 7, 2017) (holding that
setting the court’s schedule and dismissing claims from
a complaint “f[e]ll well within the scope of judicial
responsibility” and were protected by judicial
immunity); Bobrowsky v. Yonkers Courthouse, 777 F.
Supp. 2d 692, 712–13 (S.D.N.Y. 2011) (holding that state
court judge’s action of issuing a protective order was
“clearly a judicial function” and protected by judicial
immunity); Tota v. Ward, No. 07-CV-26, 2008 WL
619163, at *3 (W.D.N.Y. Mar. 3, 2008) (“There is no
dispute that [the defendant judge] had jurisdiction to
issue an Order of Protection. The dispute is whether he
did so properly. But whether he did or did not, [the
judge] is nonetheless protected from suit by the
doctrine of judicial immunity.”).
Accordingly, Plaintiff’s claims against Judge
Greenwald are dismissed. See Sage-El v. Tully, No. 15CV-5606, 2015 WL 6455242, at *2 (E.D.N.Y. Oct. 26,
2015) (“To the extent [the] plaintiff seeks to bring
claims against the judges involved in his state court
proceedings his claims must be dismissed, as judges
have absolute immunity for their judicial acts
performed in their judicial capacities.”).
b. Judge Egitto
Plaintiff sues Judge Egitto, “in his official
capacity as the Supervising Judge of the Family

26a

Courts, in the 9th Judicial District, State of New York,”
under § 1983 and 22 U.S.C. §§ 2201 and 2202, for failing
or refusing to “correct a custom and practice in the
Westchester County Family Court of denying litigants
their constitutional right[s] to” freedom of religion,
parental relations, due process, keep and bear arms,
and a hearing pursuant to FCA, § 842-a(7). (Compl. ¶¶
76–82.) Plaintiff alleges Judge Egitto failed or refused
to correct a custom and practice of appointing AFCs
without jurisdiction, (id. ¶ 83), and a custom and
practice of “failing to inform parents when AFCs are
appointed, the legal authority for the appointment, the
factual basis for the appointment, the identity of the
AFC and if the AFC is precluded from accepting any
appointments,” (id. ¶ 84).
Plaintiff’s claims against Judge Egitto in his
official capacity are barred by the Eleventh
Amendment because they are essentially claims against
the State of New York. See Myers v. Cholakis, No. 08CV-126, 2008 WL 5147042, at *2 (N.D.N.Y. Dec. 5,
2008) (“Thus, to the extent that [the plaintiff] purports
to sue [the state judge] in her official capacity as a New
York State Judge, such claims are barred by the
Eleventh Amendment.”); Sassower v. Mangano, 927 F.
Supp. 113, 121 (S.D.N.Y. 1996) (holding that claims
asserted against the presiding and associate justices of
the New York State Appellate Division, Second
Department, were barred by the Eleventh
Amendment), aff'd, 122 F.3d 1057 (2d Cir. 1997). “[A]s a
general rule, state governments may not be sued in
federal court unless they have waived their Eleventh
Amendment immunity, or unless Congress has
abrogated
the
states'
Eleventh
Amendment
immunity....” Gollomp v. Spitzer, 568 F.3d 355, 366 (2d
Cir. 2009) (quotation marks omitted). “[T]he immunity

27a

recognized by the Eleventh Amendment extends
beyond the states themselves to state agents and state
instrumentalities that are, effectively, arms of a
state.” Id. (quotation marks omitted). New York has
not waived its Eleventh Amendment immunity to suit
in federal court, and Congress did not abrogate the
states' immunity in enacting 42 U.S.C. § 1983. Trotman
v. Palisades Interstate Park Comm'n, 557 F.2d 35, 40
(2d Cir. 1977). Plaintiff’s § 1983 claim against Judge
Egitto in his official capacity is therefore barred by the
Eleventh Amendment and is dismissed.56
3. Younger Abstention
Even if DiMella-Deem and Eichen were state
actors, and Judge Greenwald and Judge Egitto were
not protected by judicial immunity, this Court would
have to abstain from exercising jurisdiction over this
case under Younger v. Harris, 401 U.S. 37, 43–44 (1971).
Plaintiff seeks declaratory and injunctive relief that
would cause this Court to intervene in Plaintiff’s
ongoing state-court child custody and divorce
proceedings.
Younger abstention provides that “federal courts
should generally refrain from enjoining or otherwise
interfering in ongoing state proceedings.” Spargo v.
N.Y. State Comm'n on Judicial Conduct, 351 F.3d 65,
74 (2d Cir. 2003). The Court is mindful that “abstention
is generally disfavored, and federal courts have a
virtually unflagging obligation to exercise their
jurisdiction,” Niagara Mohawk Power Corp. v. Hudson
River-Black River Regulating Dist., 673 F.3d 84, 100
(2d Cir. 2012) (quotation marks omitted), and that
“Younger abstention is a ‘prudential limitation’
grounded in considerations of comity rather than a

28a

‘jurisdictional bar’ derived from Article III of the
Constitution,” Sullivan v. New York State Unified
Court Sys., No. 15-CV-4023, 2016 WL 3406124, at *6
(S.D.N.Y. June 17, 2016) (quoting Kaufman v. Kaye,
466 F.3d 83, 88 n.1 (2d Cir. 2006)). However,
“Younger abstention is required when three conditions
are met: (1) there is an ongoing state proceeding; (2) an
important state interest is implicated in that
proceeding; and (3) the state proceeding affords the
federal plaintiff an adequate opportunity for judicial
review of the federal constitutional claims.” Diamond
“D” Const. Corp. v. McGowan, 282 F.3d 191, 198 (2d
Cir. 2002) (emphasis added).
All three Younger requirements are clearly met
in this case. First, Plaintiff’s Complaint and recent
correspondence with the Court reflects that state
proceedings are ongoing in the divorce and custody
dispute underlying this Action. (See Compl. ¶¶ 50, 54;
Pl.'s Nov. 2018 Letter; Pl.'s Apr. 2019 Letter.) Plaintiff
does not, in fact, allege that his state-court proceedings
have concluded. Second, the underlying divorce and
child custody proceeding undoubtedly involves an
“important state interest.” Diamond “D” Const. Corp.,
282 F.3d at 198. Indeed, the Supreme Court has long
recognized a “domestic relations exception” that
“divests the federal courts of power to issue divorce,
alimony, and child custody decrees.” Ankenbrandt v.
Richards, 504 U.S. 689, 703 (1992); see also Reno v.
Flores, 507 U.S. 292, 310 (1993) (noting that states have
“special proficiency in the field of domestic relations,
including
child
custody”
(quotation
marks
omitted)); Khalid v. Sessions, 904 F.3d 129, 133 (2d Cir.
2018) (“Family law, after all, is an area of law that
federal courts and Congress leave almost exclusively to
state law and state courts.”). Third and finally, Plaintiff

29a

would have an adequate opportunity for judicial review
of the federal constitutional claims in state court. After
the Family Court enters a final order, Plaintiff may
appeal that decision within the state court system and
raise there all federal constitutional claims. See Donkor
v. City of New York Human Resources Admin. Special
Servs. for Children, 673 F. Supp. 1221, 1226 (S.D.N.Y.
1987) (“[The Second] Circuit has often recognized the
obligation and competence of state courts to decide
federal constitutional questions.” (citing Texaco Inc. v.
Pennzoil Co., 784 F.2d 1133, 1142 (2d Cir.
1986) and Star Distributors, Ltd. v. Marino, 613 F.2d 4,
8 n.10 (2d Cir. 1980))). Plaintiff has “not shown any
procedural barrier to [his] assertion of constitutional
issues in the state court proceeding.” Id. (citing Moore
v. Sims, 442 U.S. 415, 430 (1979)). “So long as a plaintiff
is not barred on procedural or technical grounds from
raising alleged constitutional infirmities, it cannot be
said that state court review of constitutional claims is
inadequate for Youngerpurposes.” Hansel v. Town
Court for Springfield, 56 F.3d 391, 394 (2d Cir. 1995).
*12 The Court therefore dismisses Plaintiff’s Complaint
on Younger abstention grounds as well.
4. Domestic Relations Abstention Doctrine
The Supreme Court has recognized a domestic
relations exception to subject matter jurisdiction that
“divests the federal courts of power to issue divorce,
alimony, and child custody decrees.” Ankenbrandt, 504
U.S. at 703. “The whole subject of the domestic
relations of husband and wife, parent and child, belongs
to the laws of the states, and not to the laws of the
United States.” In re Burrus, 136 U.S. 586, 593–94
(1890). The exception is narrow, but even in cases

30a

where the Court may properly exercise original subject
matter jurisdiction, “[a] federal court presented with
matrimonial issues or issues ‘on the verge’ of being
matrimonial in nature should abstain from exercising
jurisdiction so long as there is no obstacle to their full
and fair determination in state courts.” American
Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d Cir.
1990)(per curiam); see also Ranney v. Bauza, No. 10CV-7519, 2011 WL 4056896, at *3 (S.D.N.Y. Aug. 31,
2011) (distinguishing the narrow domestic relations
exception
from
the
broader
“American
Airlines abstention doctrine” upon which courts in the
Second Circuit routinely rely). Applying these
principles, courts in the Second Circuit have abstained
from controversies that, regardless of how a plaintiff
characterizes them, “begin and end in a domestic
dispute.” Tail v. Powell, 241 F. Supp. 3d 372, 377
(E.D.N.Y. 2017) (citation and quotation marks
omitted); see also Martinez v. Queens Cnty. Dist. Atty.,
596 F. App'x 10, 12 (2d Cir. 2015) (applying domestic
relations exception to plaintiff’s conspiracy claim
against state judges and officials involved in divorce
proceeding and reasoning that “subject matter
jurisdiction may be lacking in actions directed at
challenging the results of domestic relations
proceedings,” even if parties are not seeking a custody
decree); see also Schottel v. Kutyba, No. 06–1577, –––
Fed. App'x ––––, 2009 WL 230106, at *1 (2d Cir. Feb. 2,
2009) (“Although we recognize that the domestic
relations ‘exception is very narrow,’ a plaintiff cannot
obtain federal jurisdiction merely by rewriting a
domestic dispute as a tort claim for monetary
damages.” (citation omitted)).
Here, the Court must abstain from exercising
jurisdiction over Plaintiff’s federal claims because

31a

Plaintiff presents issues that are, or are on the verge of
being, about child custody and divorce. Plaintiff’s claims
arise from the Defendants' alleged actions in the child
custody and divorce proceedings that are pending in a
state court. Plaintiff seeks declaratory and injunctive
relief, as well as damages, from the Family Court
Judges overseeing the divorce and child custody
proceedings, his wife, and his wife’s attorney
representing her in those proceedings. (See
generally Compl.) That Plaintiff invokes rights
guaranteed him by the federal Constitutional and
federal law does not change the fact that all the alleged
violations occurred during the course of his state
divorce and child-custody proceedings. (Compl. ¶¶ 22–
53.) Plaintiff does not allege, and there is no indication,
that Plaintiff will not be able to vindicate those rights
on appeal in the state court system.
Accordingly, the Court dismisses the remainder
of Plaintiffs federal claims under the abstention
doctrine articulated in American Airlines. See Tait, 241
F. Supp. 3d at 376 (“[T]he [domestic relations]
exception is ... understood to grant to federal courts the
discretion to abstain from exercising jurisdiction over
issues on the verge of being matrimonial in nature as
long as full and fair adjudication is available in state
courts.” (quotation omitted)); McKnight, 699 F. Supp.
2d at 517 (applying domestic relations abstention
doctrine to plaintiff’s tort claims arising out of state
child-custody proceedings); Neustein v. Orbach, 732 F.
Supp. 333, 339–40 (E.D.N.Y. 1990) (applying domestic
relations abstention doctrine to plaintiff’s federal
constitutional claims against actors involved in state
court child-custody proceedings, and concluding that
jurisdiction was lacking where the “[p]laintiff’s sole
purpose in bringing this domestic relations dispute to

32a

the federal courts [was] a frivolous attempt to engage
the [c]ourt in a manner over which it ha[d] no
jurisdiction”).7
III. Conclusion
For the foregoing reasons, Eichen and DiMellaDeem’s Motions are granted. The remainder of
Plaintiff’s federal claims are barred by judicial and
state immunity, and this Action is dismissed in its
entirety on abstention grounds. The Court denies
Plaintiff’s outstanding application as moot. (Dkt. Nos.
15, 18.) Although courts generally grant a pro se
plaintiff an opportunity to amend a complaint to cure its
defects, leave to amend is not required where it would
be futile. See Hill v. Curcione, 657 F.3d 116, 123–24 (2d
Cir. 2011); Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d
Cir. 1988). Plaintiff is an attorney whose prior cases
involving the same Family Court proceedings were
dismissed on similar grounds. Because the defects in
Plaintiff’s Complaint cannot be cured, Plaintiff’s
Complaint is dismissed with prejudice.
The Clerk of the Court is respectfully directed to
terminate the pending Motions, (Dkt. Nos. 9, 13), enter
judgment for all Defendants, close this case, and mail a
copy of this Opinion and Order to Plaintiff.8
SO ORDERED.
Footnotes
1Plaintiff is an attorney licensed to practice law
in the state of New York. He is currently suspended
from practicing law in this Court. On June 17, 2016, the
Court’s Committee on Grievances suspended him from
practicing in this Court “for a period of six months and
until further order of this Court.” In re: Michael Deem,

33a

M-2-238 (S.D.N.Y. June 17, 2016). Plaintiff has not filed
an application for reinstatement and the Committee has
not reinstated him. Plaintiff makes no mention of his
status as an attorney or his suspension in his
Complaint.
The Court is ordinarily obliged to construe pro
se pleadings liberally, Harris v. Mills, 572 F.3d 66, 72
(2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggest,” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 474–75 (2d Cir.
2006) (per curiam) (quotation marks omitted). Because
Plaintiff is an attorney, however, he is not entitled to
the special solicitude usually granted to pro se
litigants. See Tracy v. Freshwater, 623 F.3d 90, 102 (2d
Cir. 2010) (“[A] lawyer representing himself ordinarily
receives no such solicitude at all.”); Zappin v. Doyle,
No. 17-CV-8837, 2018 WL 2376502, at *6 (S.D.N.Y. Apr.
10, 2018) (declining to treat attorney proceeding pro se
with special solicitude because he was an experienced
litigator, had access to the court’s electronic filing
system, and had previously represented himself in
multiple cases).
2Judge Greenwald and Judge Egitto have not
been served and have not appeared in this Action.
322 U.S.C. § 2201 authorizes the U.S. President
to expend funds towards “[a]ssistance to disadvantaged
children in Asia.” Plaintiff makes no allegations
regarding the President’s provision of assistance to
children in Asia in his Complaint, and it is not clear that
Plaintiff has a private cause of action under this
provision in any event. 22 U.S.C. § 2202 does not exist.
The Court therefore treats Plaintiff’s claims against
Judge Egitto as § 1983 claims only.

34a

4Inasmuch as Plaintiff is seeking declaratory
relief that his right to a § 842-a(7) hearing was violated,
Plaintiff fails to allege any facts supporting his
conclusory assertion. Section 842-a(7) provides that
where a court issues a protective order revoking or
suspending a firearm license or ordering the surrender
of firearms prior to a hearing, it “shall commence such
hearing within fourteen days of the date such order was
issued.” § 842-a(7). Plaintiff alleges that a modified TOP
ordering him to surrender certain firearms was entered
against him on September 26, 2018. (Compl. ¶ 34.)
According to Plaintiff, Judge Greenwald held a
conference on September 28, 2018 to discuss the terms
of the TOP, but then adjourned the conference to
November 9, 2018, so that he could appoint counsel for
the children. (Id. ¶ 35.) Thus, on its face, Plaintiff’s
Complaint fails to allege that he was denied a hearing—
the hearing commenced two days after the issuance of
the order. When Plaintiff wrote to Judge Egitto on
September 29, 2018 to ask for a § 842-a(7) hearing,
Judge Egitto responded by pointing to a hearing that
was already scheduled for November 9, 2018. (Id. ¶¶
37–38.) Plaintiff does not deny that the November 9,
2018 hearing took place and in fact contests that he was
provided certain information in court that day. (Id. ¶¶
51–53.) Section 842-a(7) provides that a hearing must be
commenced within fourteen days—it does not bar state
judges from adjourning such hearings for legitimate
purposes.
5Even if Plaintiff had sued Judge Egitto in his
individual capacity, the suit would have been barred by
judicial immunity because all the actions Plaintiff
alleges Judge Egitto took are judicial functions well
within the scope of judicial responsibility. Plaintiff

35a

alleges that Judge Egitto granted a September 26, 2018
ex parte application for the modification of the TOP
against Plaintiff although he knew that Eichen and
DiMella-Deem made affirmative misrepresentations in
that application. (Compl. ¶¶ 34, 48.) Plaintiff also
alleges that Judge Egitto ignored his September 29,
2018 letter requesting a § 842-a(7) hearing, (id. ¶ 37),
and instead responded on October 2, 2018 by
referencing a future court date of November 9, 2018
and a trial on the underlying petitions scheduled for
January 8 and 9, 2019, (id. ¶ 38). As the Court explained
with respect to Judge Greenwald, issuing and
modifying protective orders, and setting hearing
schedules are also clearly judicial functions. See Hsu,
2017 WL 4350595, at *5 (holding that setting the court’s
schedule and dismissing claims from a complaint “fall
well
within
the
scope
of
judicial
responsibility”); Bobrowsky, 777 F. Supp. 2d at 712–
13 (holding that state court judge’s action of issuing a
protective order was “clearly a judicial function”); see
also Bliven, 579 F3d at 209 (“[E]ven allegations of bad
faith or malice cannot overcome judicial immunity.”).
6Plaintiff notably does not name the
Westchester County Family Court as a defendant in
this Action. And indeed, he could not, because the New
York State Unified Court System is “unquestionably an
‘arm of the State,’ and is entitled to Eleventh
Amendment sovereign immunity.” Gollomp, 568 F.3d
at 368 (citation omitted); see also O'Dette v. N.Y. State
Unified Court Sys., No. 12-CV-2680, 2013 WL 1623597,
at *4 (E.D.N.Y. Apr. 15, 2013) (“An arm of the State,
such as the New York State Unified Court System, is
immune [under the Eleventh Amendment].”). Any

36a

claims against the Family Court would thus be barred
by the Eleventh Amendment.
Nevertheless, Plaintiff requests injunctive relief
against the Westchester County Family Court in the
form of “an order compelling the Westchester County
Family Court to hold post-deprivation hearings within
three days of entering ‘no contact’ TOPs,” (Compl. ¶ N),
and “an order compelling the Westchester County
Family Court to hold post-deprivation hearings within
fourteen days of ordering litigants to surrender their
firearms,” (id. ¶ O). Not only do courts generally not
order injunctive relief against non-parties, United
States v. Regan, 858 F.2d 115, 120 (2d Cir. 1988), it is
also “well-settled that ‘federal courts have no general
power to compel action by state officials,’ ” Columbia
Artists Mgmt., LLC v. Swenson & Burnakus, Inc., No.
05-CV-7314, 2008 WL 4387808, at *8 (S.D.N.Y. Sept. 24,
2008) (citation omitted); see also Davis v. Lansing, 851
F.2d 72, 74 (2d Cir. 1988) (rejecting application for writ
of mandamus compelling state court judge to permit
defense counsel’s use of race-based peremptory
challenges). Therefore, Plaintiff’s request for injunctive
relief against non-party Westchester County Family
Court is denied.
7The Court notes that there is some precedent in
the Second Circuit that Younger abstention does not
apply to claims for money damages. See Rivers v.
McLeod, 252 F.3d 99, 101–02 (2d Cir. 2001) (stating that
the
“application
of
the Youngerdoctrine
is
inappropriate where the litigant seeks money damages
for an alleged violation of § 1983”); McKnight, 699 F.
Supp. 2d at 520 (applying Younger abstention to
plaintiff’s claims for injunctive relief but not to
plaintiff’s claims for money damages). However, these

37a

cases cite Kirschner v. Klemons, 225 F.3d 227, 238 (2d
Cir. 2000), in which the Second Circuit did not
expressly decide whether Younger applies to claims for
money damages, but instead noted that the Supreme
Court has also declined to reach the issue and held that
even if Younger did apply to claims for money damages,
the federal suit should be stayed rather than
dismissed. Id. at 238. Because the question has not been
conclusively decided, some district courts in the Second
Circuit have applied the Younger abstention doctrine to
claims for monetary relief. See, e.g., Torres v. Gaines,
130
F.
Supp.
3d
630,
637
(D.
Conn.
2015) (applying Younger abstention doctrine to claim
for money damages); McCulley v. N.Y.S. Dept. of Envtl.
Conservation, 593 F. Supp. 2d 422, 434 (N.D.N.Y.
2006) (same). Cf. Simpson v. Rowan, 73 F.3d 134, 138 &
n. 6 (7th Cir. 1995) (observing that “a plurality [of
Circuits] now applies Younger in some fashion to
damage claims”).
Here Plaintiff seeks primarily declaratory and
injunctive relief, (Compl. ¶¶ A–P), but also
compensatory damages, and fees, costs, and
expenditures, (id. ¶¶ Q–R). It is clear that
the Younger abstention doctrine applies at least to bar
Plaintiff’s claims for declaratory and injunctive relief.
The Court need not decide whether it can dismiss
Plaintiff’s claims for monetary relief based
on Younger abstention grounds because it otherwise
dismisses those claims on the merits. However, even if
the Court did not herein dismiss all claims on the
merits, and the Younger abstention doctrine did not bar
Plaintiff’s claims for monetary relief, the domestic
relations abstention doctrine clearly does apply to bar
even
Plaintiff’s
claims
for
monetary
relief. SeeMcKnight, 699 F. Supp. 2d at 517 (applying

38a

domestic relations abstention doctrine to claims for
monetary relief because the court was “deprived of
jurisdiction over claims that ‘begin and end in a
domestic dispute,’ even if the plaintiff [was] seeking
only monetary damages” (citation omitted); see
also Schottel, 2009 WL 230106, at *1 (holding that “a
plaintiff cannot obtain federal jurisdiction merely by
rewriting a domestic dispute as a tort claim for
monetary damages” and applying domestic relations
abstention doctrine to claims for monetary relief). Thus,
Plaintiff’s claims for damages are barred by the
domestic relations exception.
8A district court may impose a leave-to-file
sanction on a plaintiff if the court (1) notifies the litigant
that future frivolous or duplicative filings could result
in sanctions; (2) if the litigant continues such behavior,
orders the litigant to show cause as to why a leave-tofile sanction order should not be issued; and (3) if the
litigant’s response does not explain why sanctions are
inappropriate. Iwachiw v. N. Y. State Dep't of Motor
Vehicles, 396 F.3d 525, 529 (2d Cir. 2005); Moates v.
Barkley, 147 F.3d 207, 208 (2d Cir. 1998). Plaintiff was
expressly warned by Judge Seibel that future frivolous
actions could result in the imposition of a leave-to-file
sanction, the Court will also separately issue an Order
directing Plaintiff to show cause why the Court should
not enjoin him from making any additional filings in this
Court regarding the actions of his wife, attorneys,
judges, and other officials involved in the state divorce
and custody proceedings.

